Number
IN THE SUPREME COURT OF THE
UNITED STATES
OCTOBER TERM, 2020
RAZHDEN SHULAYA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

FELDMAN and FELDMAN
Attorneys at Law
1129 Northern Boulevard
Suite 404
Manhasset, NY 11030
(516) 441-0452
Reversalzz@aol.com

QUESTIONS PRESENTED
1. Should certiorari be granted to find that, when a jury bullies a
holdout juror, the District Court should issue an Allen charge, in which
it instructs it that no juror should yield a conscientious conviction he
may have?
2. Should certiorari be granted to find that a District Court may
not abridge a Petitioner’s Sixth Amendment right to retain the counsel
of his own choosing at sentence?

i

TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
OPINION BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF FACTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

6

POINT 1:
CERTIORARI SHOULD BE GRANTED TO FIND
THAT,WHEN A JURY BULLIES A HOLDOUT JUROR,
THE DISTRICT COURT SHOULD ISSUE AN ALLEN
CHARGE, IN WHICH IT INSTRUCTS THE JURY THAT
NO JUROR SHOULD YIELD A CONSCIENTIOUS
CONVICTION HE MAY HAVE . . . . . . . . . . . . . . . . . . . . . . 6
POINT II:
CERTIORARI SHOULD BE GRANTED TO FIND THAT
A DISTRICT COURT MAY NOT ABRIDGE A
PETITIONER’S A SIXTH AMENDMENT RIGHT TO
RETAIN THE COUNSEL OF HIS OWN CHOOSING AT
SENTENCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
ii

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
CERTIFICATE OF SERVICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iii

TABLE OF AUTHORITIES
FEDERAL CASES
Allen v. United States, 164 U.S. 492, 41 L. Ed. 528, 17 S. Ct. 154
(1896) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 10
Spears v. Greiner, 459 F.3d 200 (2d Cir. 2006), cert. denied, 549
U.S. 1124, 127 S. Ct. 951, 166 L. Ed. 2d 725 (2007) . . . . . . . . . . 9
United States v. Fawwaz, 116 F. Supp. 3d (S.D.N.Y. 2015) . . . . . . 14
United States v. Stringer, 730 F.3d 120 (2d Cir. 2013) . . . . . . . 12, 13
United States v. White, 324 F.2d 814 (2d Cir. 1963) . . . . . . . . . . . . 14
FEDERAL STATUTES
18 U.S.C. § 1028A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
18 U.S.C. § 371. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
18 U.S.C. § 1349. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
18 U.S.C. § 1962. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

iv

No.
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
-------------------------------------------------------------RAZHDEN SHULAYA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
-------------------------------------------------------------------------------------------PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
---------------------------------OPINION BELOW
There was one summary order below, which is attached to this
petition.
JURISDICTION

1

The summary order of the Court of Appeals was decided on April
13, 2021, and this petition for a writ of certiorari is being filed within 90
days thereof, making it timely.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment right to an uncoerced jury and the Sixth
Amendment right to the counsel of one’s own choosing.

2

STATEMENT OF THE CASE
On June 6, 2017, a grand jury in the Southern District of New
York returned an indictment against Razhden Shulaya, charging him
with participation in a racketeering conspiracy (the “Shulaya
Enterprise”), under 18 U.S.C. § 1962, wire fraud conspiracy, under 18
U.S.C. § 1349, conspiracy to transport and sell stolen goods, in violation
of 18 U.S.C. § 371, conspiracy to transport and sell contraband,
cigarettes, in violation of 18 U.S.C. § 371, and identity fraud conspiracy,
in violation of 18 U.S.C. § 1028A.
Shulaya was convicted of a racketeering conspiracy, conspiracy
to violate the federal law, stolen property, conspiracy to violate federal
law, contraband cigarettes, conspiracy to commit fraud relating to
identity documents, and wire fraud conspiracy. He was thereafter
sentenced to 45 years’ imprisonment.

3

STATEMENT OF FACTS
The indictment alleged Shulaya directed an organized crime group
that it called the “Shulaya Enterprise.” It described Shulaya as a “vor v
zakone,” or “vor,” a Russian phrase that meant “Thief-in-Law.” Vors,
the government alleged, refer to an order of elite criminals from the
former Soviet Union who receive tribute from other criminals, offer
protection, and use their recognized status as ‘vor’ to adjudicate disputes
among lower-level criminals. The Shulaya Enterprise was alleged to be
based in New York City and engaged in criminal activity that, the
government claimed, included acts of violence and extortion, operating
illegal gambling businesses, defrauding casinos, engaging in identity
theft and fraud, and trafficking in stolen goods.

4

SUMMARY OF ARGUMENT
Certiorari should be granted to find that, when a jury bullies a
holdout juror, the district court should issue an Allen charge, in which
it instructs the jury that no juror should yield a conscientious conviction
he may have. It should also grant certiorari to find that a District Court
may not abridge a Petitioner’s Sixth Amendment right to retain the
counsel of his own choosing at sentence.

5

ARGUMENT
POINT I
CERTIORARI SHOULD BE GRANTED TO FIND THAT
WHEN A JURY BULLIES A HOLDOUT JUROR, THE
DISTRICT COURT SHOULD ISSUE AN ALLEN
CHARGE, IN WHICH IT INSTRUCTS THE JURY THAT
NO JUROR SHOULD YIELD A CONSCIENTIOUS
CONVICTION HE MAY HAVE.
During jury deliberations, Judge Katherine B. Forrest said:
We have a note from the jury. Let me read it to you and
then after we’re done talking about it, we’ll make it
available for inspection by people. It says, “Your Honor,
the jury is deliberating and one of the jurors is using
non-law principles to come to a conclusion in this case. Is
this something we have to sort through or is this a case an
alternate needs to be called?” The foreperson then has
signed this.
Judge Forrest then instructed the jury on, inter alia, its “role,” but
never added that no juror should surrender their own conscientiously
held beliefs. The Court never addressed the foreperson’s attempt to
remove a juror with whom he disagreed, or the bullying associated with
his conduct.
Instead, the Court effectively misled the jury in general and the
holdout in particular. The Court’s charge had the effect of improperly
coercing the minority juror to capitulate to the majority, thereby
6

permitting a conviction by what is, in effect, a majority vote. The
Court’s failure to address the minority view--the juror who did not agree
with the other jurors, and was then accused, by the foreperson, of
allegedly “using non-law principles”--coerced him, by failing to state
that he should only reach a unanimous verdict if he did not have to yield
a conscientious conviction.
While it is for the trial judge to determine whether the jury was
genuinely deadlocked, the judge never considered a number of factors
that clearly indicated the jury was both bullying and hung. The trial
issues were not complex. The crimes turned not on complicated real
estate frauds, securities transactions banking schemes, but, rather,
simply on stolen property, untaxed cigarettes and poker games. The
duration of the trial was not long, beginning on June 4, 2018 and ending
15 days later, on June 19, 2018. The representation of the foreperson
was paramount, because his note evinced not only the deadlocked state
of the jury’s deliberations, but his determination to replace the holdout
with an alternative.
It is irrelevant that the foreperson did not formally state that the
jury was hung, which would have automatically warranted a dynamite
7

charge under Allen v. United States, 164 U.S. 492, 41 L. Ed. 528, 17 S.
Ct. 154 (1896). His note was the functional equivalent of a genuinely
hung jury because he could not convince the holdout juror to convict.
Had the juror not been a holdout, it is obvious the frustrated foreperson
never would have sent to the note to the judge--regardless of how he
applied the law.
Because the jury was, for all practical matters, deadlocked, the
Court was required to reassure the holdout juror that he need not change
his vote and reach a unanimous verdict if that meant he would have to
sacrifice his conscientious judgment.
The juror deadlock was underscored by the tenor of the
foreperson’s jury note. It was unclear, and did not explain how or why
the holdout was relying on alleged “non-law principles.” Co-defense
counsel noted as much, when she said:
My concern with the instruction that the Court fashioned
was that the note says “non-law principles.” I don’t know
what that means. I don’t know if that’s religious or
philosophical. It may be that some jurors believe that they
are not allowed to use their own common sense or
experience or perspective from which to draw the
inferences that are solely within their province.

8

Given the lack of clarity in the note and the lack of agreement amongst
the jurors, it was incumbent on the Court to instruct the jury that no juror
should yield his judgment simply for the sake of unanimity.
The foreperson’s note also reflected a deeper division in the jury
room. He asked if the Court could replace a sitting juror with an
alternate juror to overcome the lack of unanimity. While such an action
would have been legally improper, it reflected the level of frustration by
the foreperson, and the degree of resistance by the holdout. In the face
of this apparent acrimony, the Court should have emphasized that a
verdict were only just and true if it reflected the judgment of each juror,
and no juror should yield his conscientious judgment, under any
circumstances. Spears v. Greiner, 459 F.3d 200 (2d Cir. 2006), cert.
denied, 549 U.S. 1124, 127 S. Ct. 951, 166 L. Ed. 2d 725
(2007)(approving an instruction where court “include[d] cautionary
language telling jurors that they had a right to stick to their arguments
and stand up for their own strong opinions.”).
The Second Circuit ruled that “[i]t is far from clear from the
record before us that the jury was deadlocked” (Decision: 9). The Court
is incorrect. This case turned on juror bullying, not a deadlocked jury.

9

The foreperson was seeking the assistance of the Court in removing a
juror with whom he disagreed, because he refused to vote guilty. Under
such circumstances, it was incumbent on the District Court to instruct
the holdout juror that he had the right to adhere to his position, stand up
for his opinion, and, under no circumstance, yield his conscientious
judgment.
The United States Supreme Court has never addressed the
necessity and scope of an Allen charge when a jurors’ dispute results in
a jury verdict tainted by such an inherently coercive environment that it
rises to the level of an affront to any notion of civilized justice, thereby
preventing a verdict from standing, as a matter of law.
Certiorari should thus be granted to find that, when a trial court
finds juror bullying, it must instruct the jury, under Allen, that, under no
circumstances, should any juror yield his conscientious judgment.

10

POINT II
CERTIORARI SHOULD BE GRANTED TO FIND THAT
A DISTRICT COURT MAY NOT ABRIDGE A
PETITIONER’S A SIXTH AMENDMENT RIGHT TO
RETAIN THE COUNSEL OF HIS OWN CHOOSING AT
SENTENCE.
Before sentence, incoming retained counsel moved for a
sentencing adjournment before Judge Loretta Preska. He explained: “As
I stated in my letter, I just came from a funeral, and I physically got to
read the PSR report just this morning. I had altogether maybe three to
four hours to look at all of the papers. So I don’t feel prepared to go
forward. I am retained counsel. Mr. Shulaya is not going anywhere. I am
fully prepared to take this case forward, but I need time to prepare and
file motions, your Honor.” He also said “I believe we need to file the
motions with respect to sentencing submissions, which I think there is
definitely a need for a Fatico hearing .... ” He added that “I am just
looking at the PSR report, and I understand that ... there are certain
issues in the PSR report which are not proven and my client denies
those. So we would ask your Honor for a month adjournment. I don’t
think it’s anything material. Mr. Shulaya is not going anywhere, on one
end, and on the other end, I would be able to speak better on his behalf

11

so as not to commit malpractice on my own end and to represent him
properly. I believe he is entitled to that, your Honor.”
Judge Preska denied the request for an adjournment, claiming:
[f]irst of all, with respect to the request for an adjournment,
as both Judge Forrest and I have pointed out, Mr. Shulaya
has used his counsel issues in this case repeatedly to seek
adjournment after adjournment after adjournment. The fact
that Mr. Niman appeared only yesterday is one more
example of using counsel issues to secure a delay. I will
note also Judge Forrest’s wisdom in appointing Mr. Cecutti
so that Mr. Shulaya would have continuity of counsel no
matter what happened with respect to retained counsel.
Because I find that Mr. Shulaya continues to use counsel
issues as an excuse to delay proceedings in this case
further, the request for an adjournment is denied. In any
event, with respect to the specific issues mentioned by Mr.
Niman, as Mr. Adams points out, there were specific
references in the PSR, and to the extent the government
dealt with it in its sentencing submission, there were
specific references to evidence at trial supporting the
allegations. Also, it appears that the loss amounts are on
the conservative side, as the PSR seems to point out.
Accordingly, the request for an adjournment is denied. I
will just point out that yesterday’s order did move the
sentencing from noon until 2:00 so that Mr. Niman was
able to be present.
Because “trial courts enjoy very broad discretion in granting or denying
trial continuances,” challenged errors are reviewed for an abuse of
discretion. United States v. Stringer, 730 F.3d 120, 127 (2d Cir. 2013).

12

“A defendant must show both arbitrariness and prejudice in order to
obtain reversal of the denial of a continuance.” Id. at 128
Here, Shulaya’s right to the effective assistance of counsel was
abridged when the District Court arbitrarily denied a one-month
adjournment to incoming retained sentencing counsel to review the
record and prepare for sentence. The Court forced retained counsel to
defend Shulaya, at sentence, after preparing for the case for only a
number of hours. Niman, who appeared in court in good faith, was not
afforded any time to review the trial transcript, which totaled 2,084
pages, nearly 500 pages of documents on Pacer and countless trial
exhibits. He thus lacked the opportunity to prepare arguments and
motions for sentence, based on citations to the record. This gravely
prejudiced Shulaya, who, at age 43, was sentenced to 45 years’
imprisonment--an effective life sentence.
Given that Shulaya received over four decades in prison, a onemonth sentencing adjournment would not have prejudiced the
Government or interfered with the administration of justice.
Significantly, defense counsel requested a delay that was of short
or fixed duration [“one month”], the sought-after legal material was

13

specified with particularity [the trial record], the proposed material was
critical to the sentence and the defendant has not been dilatory at the
sentence itself. Cf. United States v. Fawwaz, 116 F. Supp. 3d 194, 210
(S.D.N.Y. 2015)(“[United States v. White, 324 F.2d 814 (2d Cir. 1963)
... illustrates circumstances in which continuances are appropriate or
perhaps even required. They include instances in which (i) the requested
delay is of a short (or at least fixed) duration, (ii) the sought-after
evidence is specified with particularity, (iii) the proposed evidence is
critical to the defense, and (iv) the defendant has not been dilatory.”).
The Second Circuit ruled, however, that “[t]he district court’s
decision was neither arbitrary nor prejudicial. Pointing to Shulaya’s
history of counsel substitutions--he had already retained and relieved at
least three lawyers, resulting in multiple adjournments--the district court
reasonably concluded that Shulaya’s last-minute retention of Niman
constituted yet another effort to delay proceedings, and, on that basis,
denied the adjournment request. But, even if the decision were arbitrary,
Shulaya fails to identify any prejudice to him resulting from the district
court’s decision. In denying the requested adjournment, the district court
specifically discussed the substantial record support for the loss amounts

14

specified in the PSR, and Shulaya makes no argument on appeal that the
loss amount calculations were ultimately incorrect or unsupported. We
perceive no basis for disturbing the district court’s judgment” (Decision:
10-11).
The Court is wrong on both counts. Its finding that Shulaya had
retained and discharged prior attorneys does not save the District
Court’s ruling from being arbitrary. Shulaya’s Sixth Amendment right
to the counsel of his own choosing at sentence, and a one month
extension, in a case where he faced an effective life sentence, far
outweighs any inconvenience to the District Court or his initial
indecision with regard to which counsel to proceed to trial.
More important, Shulaya did, in fact, clearly identify prejudice to
him resulting from the district court’s decision. When defense counsel
argued “ ... we don’t believe that anything more than 15 years would be
appropriate,” incoming retained counsel agreed, “ ... join[ing] [appointed
counsel’s] application [because] I believe 15 years is appropriate in this
particular case” (Sentence: 30).
The District Court, in effect, imposed an unreasonable sentence
of 45 years’ imprisonment--30 years more than the requested term--

15

without affording Petitioner either his Sixth Amendment right to the
counsel of his choosing or his Fourteenth Amendment due process right
to be heard.
This Court has never ruled on the substitution of retained for
appointed counsel at trial or sentence, making this a case of first
impression. Certiorari should thus be granted to address this vital Sixth
Amendment issue.

16

CONCLUSION
THE WRIT OF CERTIORARI SHOULD BE
GRANTED.

Dated: April 15, 2021
Manhasset, New York
Respectfully Submitted,

Arza Feldman
Arza Feldman

17

UNITED STATES
SUPREME COURT

RAZHDEN SHULAYA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

I affirm, under penalties of perjury, that on April 15, 2021, we
served a copy of this petition for writ of certiorari, by first class United
States mail, on the United States Attorney, Southern District of New
York, 1 St. Andrews Plaza, New York, NY 10007, on the Solicitor
General, 950 Pennsylvania Avenue, NW Washington, DC 20530-0001,
and on Razhden Shulaya, 54114-048, 1640 Sky View Drive, Bruceton
Mills, WV 26525. Contemporaneous with this filing, we have also
transmitted a digital copy to the United States Supreme Court and are
filing one copy of the petition, instead of 10, with this Court, pursuant
to its April 15, 2020 order regarding the Covid-19 pandemic.
Arza Feldman
Arza Feldman

18

